‘;



     I


     :     Department of Health and Human Services
     I




                   OFFICE OF
              INSPECTOR GENERAL




          GEOGRAPHICAL VARIATION IN VISITS

         PROVIDED BY HOME HEALTH AGENCIES





                        Q.
                    +                “’?
                    $                      JUNE GIBBS BROWN
                   $.                       Inspector General
                    s
                     ‘% @
                      ?-++
                              2
                             ‘~dz~
                                             SEPTEMBER      1995
                                              OEI-04-93-00262
                      OFFICE OF INSPECTOR GENEIU4L

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The 010’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efilciency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


              OFFICE OF EVALUATION AND INSPECTIONS
The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J.
Flowers, Regional Inspector General.

Atlanta Region                                Headquarters

Paula Bowker, Project Leader                  Jennifer Antico, Program Specialist

Ron Kalil, Team Leader                        Brian Ritchie, Program halyst

Tammy Bonney, Statistician                    Linda Moscoe, Program Analyst

Christopher Koehler, DRIG                     Barbara Tedesco, Statistician

Peggy Daniel, Program Analyst

  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




 GEOGRAPHICAL VARIATION IN VISITS

PROVIDED BY HOME HEALTH AGENCIES





           *.-’       “9


           $               JUNE GIBBS BROWN
           $                Inspector General
           %
           ‘5
            %--
  ~
                             SEPTEMBER      1995
              ‘%d~a
               >              OEI-04-93-00262

                 EXECUTIVE                              SUMMARY


PURPOSE

To assess geographical   variation   in average   number   of Medicare   visits provided   by home
health agencies.

BACKGROUND

In a prior 1995 inspection report, we described significant variation among home health
agencies (HHAs) in average reimbursement per beneficiary. The highest-reimbursement
group of HHAs received, on average, five times more Medicare reimbursement per
beneficiary than did the lowest-reimbursement group. The variation in reimbursement
among HHAs was largely caused by variation in the average number of visits per
beneficiary.

This report identifies geographic locations of high-visit HHAs. The Health Care
Financing Administration (HCFA), State survey agencies, Regional Home Health
Intermediaries (RHHIs), Offices of Investigations and Audit Services in the Office of
Inspector General, and law enforcement agencies will find the report useful in targeting
resources for detection and prevention of fraud and abuse.

We analyzed HCFA data on Medicare reimbursement for home health services in
calendar year 1993. The HCFA data represented services provided by 6,803 HHAs to
over 3 million beneficiaries.

FINDINGS

Nineteen States Had A Larger Concentration Of High-Visit HHAs Than Other States

Home health agencies in 19 States exceeded the national average of 50.4 visits per
beneficiary. HHAs in those States averaged 67.2 visits per beneficiary while HHAs in the
remaining 34 States averaged 36.

Home Health Agencies In The southeastern Region Averaged The Most Visits Per
Beneficiary

HHAs in Region IV (Southeastern Region) averaged 70 visits per Medicare beneficiary.
Seven of the eight States in Region IV were among the 19 high-visit States.

Home Health Agencies In Four southeastern States Averaged Twice As Many Visits Per
Medicare Beneficiary As HHAs In All Other States

HHAs in Tennessee, Alabama, Mississippi, and Georgia combined averaged 92.7 visits
per beneficiary. All other States averaged 45.7 visits.


                                                    i
About 86 percent of the HHAs located in these four Southeastern                   States exceeded the
national   average   number   of visits per Medicare        beneficiary   compared to 34 percent for
the rest of the nation.

About 35 percent of the HHAs located in these States averaged 100 or more visits per
Medicare beneficiary compared to 7 percent of the HHAs in the rest of the nation.

Regardless Of Their Locatiorq I-IHAs Seticed By Regional Home Health Intermediaries
Located In The Southeast Had The Highest Number Of Visits Per Medicare Beneficiary

Home health agencies serviced by Aetna Life Insurance in Clearwater, Florida and Blue
Cross & Blue Shield in Columbia, South Carolina averaged 72.2 and 65.1 visits per
Medicare beneficiary, respectively. This is about twice the average of HkL% serviced by
Independence Blue Cross in Philadelphia, Pennsylvania and Blue Cross in Woodland
Hills, California, which had the lowest average number of visits among the nine RHHIs.
Some of the HHAs the two Southeastern RHHIs semice are located outside of the
Southeast, suggesting that both the location of the HHA and the identity of the servicing
intermediary are strongly associated with variation in visits.

FUTURE       OIG STUDIES

In a previous report, “Variation Among Home Health Agencies in Medicare Payments For
Home Health Services, ” 0EI-04-93-O0260, we recommended that HCFA take action to
eliminate inappropriate variation in Medicare reimbursement among HHAs. Specifically,
we suggested that HCFA target high-visit HHA,s for further review. We believe the
information in this report will assist HCFA in implementing that recommendation.

We also believe that the variation in average number of visits by State and regions raises
questions about the uniformity of oversight among State sumey agencies, HCFA regional
offices, and Regional Home Health Intermediaries. We plan to continue our analysis of
these and related questions under Operation Restore Trust.




                                                       ii
                       TABLE                     OF CONTENTS



EXECUTIVE         suMMARY



INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


                             High-Visit HHAs              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..3


    Southeaster        nRegio n........             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4


Four Southeaster        notate      s.....    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


Southeaster     nIntermediarie          s.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


              OIGS’T’UDIES            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


APPENDIX

Number OfVisits Among 6,803 HHAs In All States . . . . . . . . . . . . . . . ...                                . . ..A-1


         .
                                    INTRODUCTION

PURPOSE

To assess geographical variation in average number of Medicare visits provided by home
health agencies.

BACKGROUND

In a prior 1995 inspection reportl, we described significant variation among home health
agencies (HHAs) in average reimbursement per beneficiary. The variation in
reimbursement among HHAs was largely caused by variation among HHAs in the
average number of visits per beneficiary. The highest-reimbursement group of HHAs
received, on average, five times more Medicare reimbursement per beneficiary than did
the lowest-reimbursement group. Other possible causes of the variation, such as
differences in cost per visit, beneficiary characteristics (age, sex, and illness), quality of
services, and types of semices appeared to explain little or none of the variation.

This report identifies geographic locations of HHAs that average a high number of visits
per Medicare beneficiary. The Health Care Financing Administration (HCFA), State
survey agencies, Regional Home Health Intermediaries (RHHIs), Offices of
Investigations and Audit Services in the Office of Inspector General, and law
enforcement agencies will find the report useful in targeting resources for detection and
prevention of fraud and abuse.

METHODOLOGY

Because the extreme variation in reimbursement to HHAs was strongly linked to the
number of visits made, we used average visits per beneficiary as a proxy for average
reimbursement and focussed this inspection on visits.

To determine     the average number of visits per beneficiary per ~       we first identified
all HHAs    in the United States that were certified to participate in the Medicare
program. We used HCFA’S On-line Survey and Certification Reporting System
(OSCAR) for 1993 and identified 6,803 HHAs.

We then identified all episodes of care claimed for reimbursement by the 6,803 HHAs
for Medicare beneficiaries. We used HCFA’S National Claims History data file and
identified 3,263,100 episodes of home health care in 1993. We considered each episode
of home health care to be equivalent to one beneficiary served. An episode is a period
of care with no breaks between visits greater than 60 days.



       1

        Vhriation Among Home Health Agencies In Medicare Payments For Home Health Services - 0E144-93-I.W260



                                                           1
We then calculated the average number of visits per beneficiary for each of the 6,803
HI%%. That is, we divided the total number of home health visits that an HHA made by
the number of Medicare beneficiaries served.

Finally, we arrayed all 6,803 HHAs by average number of visits per beneficiary. Next, we
determined the geographic location of each of the 6,803 HHAs and classified them by
(1) State, (2) the 10 standard Federal Regions, and (3) the 9 servicing Regional Home
Health Intermediaries (RHHIs). RHHIs are responsible for processing Medicare claims
from HHAs. For the purpose of our analyses, we considered Puerto Rico, Virgin Islands,
and District of Columbia as States.

                                .-     --        .-   --


We conducted our inspection in accordance with the Quality Standards for Jnspech’ons
issued by the President’s Council on Integrity and Efficiency.




                                            2

                                          FINDINGS


NINETEEN STATES HAD A LARGER                      CONCENTRA TION OF HIGH-VISIT HEW
THAN OTHER STATES

@ average, home health agencies in 19 States exceeded the national average of 50.4
visits per beneficiary. Figure 1 shows that HHAs in the 19 States averaged 67.2 visits per
beneficiary while HHAs in the remaining 34 States averaged 36.

Nationally, the average number of home health care visits per Medicare beneficiary in
the 53 States ranged from a low of 20.5 to a high of 94.9. The number of visits per
beneficiary by HHAs in the 19 high States ranged from 50.8 to 94.9.

Appendix A shows how HHAs in each State compared to the national average of 50.4
visits per beneficiary.

                                    1      FIGURE
  AVERAGE VISITS PER BENEFICIARY BY HHAs IN 19 HIGH-VISIT STATES
         COMPARED TO VISITS BY HHAs IN ALL OTHER STATES


           Avg     #   Of        Visits     Per         beneficiary

                                    67
                                              /




                                                                           36




                            19                                        34

                                     Number             of   States




                                                   3

HOME HEALTH AGENCIES IN THE SOUTHEAS TERN REGION AVERAGED
THE MOST VISITS PER BENEFICIARY

HHAs in Region IV (Southeastern Region) averaged 70 visits per Medicare beneficiary.
Table 1 shows that three of the ten Federal regions exceeded the national average of
50.4 visits per Medicare beneficiary by HHAs. The three regions were Region IV, VI,
and I. HHAs in these three regions averaged 66.9 visits per Medicare beneficiary while
HHAs in the remaining seven regions averaged 37.8 visits.

                                                      TABLE       1

     ;:. ,$2@lI!@U@N             ,.                 “l@%~Gl? NUk@@:’OF.   HOMIWIEAL’&W3~”
         ..’:.
             Y :..:
                 .:..
                   .  ....:’.:,.,:
.,:.:..:: :...:.,, , .,:.;.....,..,.,.:‘“:P~~TC~.”B-~Y~~;~GION
                                        :...,,,.:,.                                  .:, “::::” :.: ,   ;’:
r
      REGION                                 STATES IN REGION	                           AVG # OF
                                                                                         VISITS*




II*Average      number of visits based on location of providers rather than beneficiaries

Seven of the eight States in Region IV were among the 19 high-visit States for home
health services. Home health agencies in the seven States averaged 72.3 visits per
Medicare beneficiary in 1993. This was about 1.4 times the national average of 50.4
home health visits per beneficiary.


                                                            4

HOME HEALTH AGENCIES IN FOUR SO~              STATES AVERAGED
TWICE AS MANY VISITS PER MEDICARE BENEFICIARY  AS HHAs IN ALL
OTHER STATES

The four States were Tennessee, Alabama, Mississippi, and Georgia.     Combined, HHAs
in the four Southeastern States averaged 92.7 visits per beneficiary, All other States
averaged 45.7 (See Figure 2.) The average number of home health visits by HHAs in
the four Southeastern States ranged from 88.4 to 94.9 during 1993. Appendix A shows
the average number of visits per beneficiary in each State.

                                          FIGURE 2
  AVERAGE VISITS PER BENEFICIARY BY HHAs IN FOUR HIGHEST-VISIT
     STATES COMPARED TO VISITS BY HHAs IN ALL OTHER STATES




                  lf Visits        Per   Beneficiary


                         94.7
                                                       88.4




                                                                             45.7

      —




             TN               AL              MS         GA          All   Others
                                            STATES




                                               J
Most Of The HHAs Located In The Four Southeastern States Exceeded The National
Average Number Of Visits Per Medicare Beneficiary.

Of the 541 HHAs located in the four high-visit Southeastern States, 86 percent (465)
averaged more than 50.4 visits per beneficiary in 1993. Conversely, about 34 percent
(2,110) of the 6,262 HHAs located in the rest of the nation exceeded 50.4 visits per
beneficiary.

Table 2 shows the percentage of HHAs in each of the four States that exceeded the
national average number of visits per beneficiary. On average, between 81 and 93
percent of the 541 HHAs exceeded the national average. Appendix A contains a
complete list of States showing the percentage of HHAs within those States that
averaged above and below the national average of 50.4 visits per Medicare beneficiary.
                                         TABLE 2

         : P~@~b~’@fi!~@O@NA~ON~                          @@ti~E           ‘OF
           5~,H@41wE@m$&z13               Pm’”MEDI@.I@BqqEFqcIARY:               ,
         I
           Mississippi                                                  93.2%

           Georgia                                                      86.6%

         II Tennessee                                              I    86.4% II
          Alabama                                                       81.6%

           Rest of Nation                                               33.7%

About 35 Percent Of The HHAs Located In The Four southeastern States Averaged 100
Or More Visits Per Medicare Beneficiary.

Of the 541 HHAs located in the four highest-visit States, 188 (about 35 percent)

averaged 100 or more visits per Medicare beneficiary. Only 7.1 percent (442 of 6,262) of

HHAs in the rest of the nation averaged 100 or more visits (See Table 3).

                                       TABLE 3




        II Tennessee                                               I     42.5% II

        IIGeorgia                                                  I     31.7%       I
        IIII Alabama
             Mississippi                                                 30.1%
                                                                               I
                                                                   I     27.2% II

          Rest of Nation                                                  7.1%




                                            6

REGARDLESS OF WHERE THE HHA IS LOCATED, HHAs SERVICED                            BY
REGIONAL HOME HEALTH INTHWEDIARIES   LOCATED IN THE
SOUTHEAST HAD THE HIGHEST NUMBER OF VISITS

Home health agencies serviced by Aetna Life Insurance in Clearwater, Florida and Blue
Cross & Blue Shield in Columbia, South Carolina (See Table 4) averaged about twice as
many visits per beneficiary as HHAs serviced by Independence Blue Cross in
Philadelphia, Pennsylvania and Blue Cross in Woodland Hills, California, even though
some of the HHAs they service are located outside of the Southeast. This suggests that
~     the location of the HI-IA and the identity of the servicing intermediary are strongly
associated with variation in visits.




                         RHHI	                     AVERAGE # OF HOME
                                                   HEALTH VISITS PER
                                                   MEDICARE BENEFICIARY

            Aetna Life Insurance Co.
                         72.2
            Clearwater, FL

            Blue Cross & Blue Shield of
                      65.1
            South Carolina

            Columbia, SC

            New Mexico Blue Cross and
                        61.8
            Blue Shield, Inc.

            Albuquerque, NM

            Assoc Hospital Semite of Maine
                   59.9
            South Portland, ME
            IASD Health Services Corp.                        49.9
            Des Moines, IA
            Health Care Service Corp.                         42.9
            Chicago, IL
            Blue Cross and Blue Shield                        36.9
            United of Wisconsin
            Milwaukee, WI
            Blue Cross of California                          34.2
            Woodland Hills, CA
            Independence Blue Cross                            32.5
            Philadelphia, PA


                                              7

The vast majority of HHAs serviced by Aetna in Clearwater, Florida and Blue Cross/Blue

Shield of South Carolina are located in the Southeastern Region. About 91 percent of

HHAs serviced by Aetna Cleanvater are in Region IV, and the remaining 9 percent are

in other geographic regions. About 89 percent of HHAs serviced by South Carolina Blue

Cross/Blue Shield are in Region IV, and about 11 percent are located in other

geographic regions.


The average number of visits per beneficia~ by HHAs serviced by Aetna Clearwater and

Blue Cross/Blue Shield of South Carolina averaged more than that for most other

RHHIs -- regardless of HHA location. To illustrate, the HHAs located in the Southeast

and serviced by Aetna Clearwater averaged 72.1 visits per beneficiary. Comparably, the

HHAs located outside the Southeastern Region and seticed by Aetna ClearWater

averaged 74.6 visits per beneficiary.


Likewise, the HHAs in the Southeastern Region that were serviced by South Carolina
Blue Cross/Blue Shield averaged 66.8 visits per beneficiary. The HHAs located outside
the Southeast and serviced by South Carolina Blue Cross/Blue Shield average 53.2 visits
per beneficiary. While the average of 53,2 visits per beneficiary is less than that for
HHAs sexviced by South Carolina Blue Cross/Blue Shield in the Southeast, it is higher
than that for five of the nine RHHIs nationally (See Table 4).

FUTURE OIG STUDIES

In a previous report, “Variation Among Home Health Agencies in Medicare Payments For
Home Health Services,” 0EI-04-93-O0260, we recommended that HCFA take action to
eliminate inappropriate variation in Medicare reimbursement among HHAs. Specifically,
we suggested that HCFA target high-visit HHAs for further review. We believe the
information in this report will assist HCFA in implementing that recommendation.

We also believe that the variation in average number of visits by State and regions raises
questions about the uniformity of oversight among State survey agencies, HCFA regional
offices, and Regional Home Health Intermediaries. We plan to continue our analysis of
these and related questions under Operation Restore Trust.




                                             8

                                APPENDIX                   A



               States are listed in ascending order based on average
              number of home health visits per Medicare beneficiary.
                       #   OF    AVG # OF            %OFHHAS           % OF HHAs
STATE
                           VISITS              ABOVE THE         AVERAGING
                                 PER BENE            NATIONAL          100 OR
                                                     AVERAGE           MORE
                                                     OF 50 VISITS      VISITS PER
                                                     PER BENE          BENE
                                                 i
Virgin Islands
            2                                    o%              o%
Minnesota
              196                                 13.8%             3.1%
Wisconsin
              165                                 21.8%             3.070
South Dakota
              29                                6.9%               o%
Puerto Rico
               44                                                 2.3%
Iowa
                   162                                  17.9%            5.6%
Dist of Columbia
          12                                   o%              o%
Alaska
                    12                                16.7%            8.3%
Maryland
                  71                                8.5%               o%
New Jersey
                53                                3.8%               o%
Oregon
                    71                                14.1%              o%
Washington
                55                                14.5%             1.8$Z0
Nebraska
                  52                                15.4%             3.8%
Hawaii
                    20                                                  5.0%
Pennsylvania
           276                                                    1.4%
Michigan
               157                                                    1.9%
New Mexico
                63                                23.8%             4.8%
California
             460                                  15.9%             2.4%
Colorado
               120                                  32.59Z0           9.2%
Montana
                   43                                16.3940            070
North Dakota
              31                                25.8?Z0           6.5%


                                          A-1

         States are listed in ascending order based on average
        number of home health visits per Medicare beneficiary
                 #   OF    AVG # OF         %OFHHAs        % OF HHAs
STATE                      VISITS           ABOVE THE      AVERAGING
                           PER BENE         NATIONAL       100 OR
                                            AVERAGE        MORE
                                            OF 50 VISITS   VISITS PER
                                            PER BENE       BENE




                                     A-2

               States are listed in ascending order based on average
              number of home health visits ~er Medicare beneficial     .

                                                  %OFHHAS         % OF HHAs
STATE
                                            ABOVE THE       AVERAGING
                                                  NATIONAL        100 OR
                                                  AVERAGE         MORE
                                                  OF 50 VISITS    VISITS PER
                                                  PER BENE        BENE
Indiana
              I 170                               47.6%            10.0%
Nevada
               I 23                                56.5%            4.3$Z0
Texas
                                                    52.8%            13.0%
Massachusetts
        I 143                               72.7%            16.8%
Oklahoma
                                                 52.3%            20.3%
Utah
                 I 49                                71.4%            16.3%
I.muisiana
           I 398                               70.4%            28.6%
Georgia
              I 82                                86.6%            31.770
Missksimi             I   73                              93.2%            30.1%
Alabama               ] 158                               81.6%            27.2%
Tennessee             I 228                               86.4%            42.5V0




                                           A-3

